No. 20-7480

In the Supreme Court of the United States
MICKEY THOMAS,
Petitioner,
v.
DEXTER PAYNE, Director,
Arkansas Division of Correction,
Respondent.
CERTIFICATE OF SERVICE
I, Vincent M. Wagner, counsel for Respondent, Dexter Payne, hereby certify that
on this day, June 15, 2021, I caused one copy of Respondent’s Brief in Opposition to
be served by email on the following counsel:
John C. Williams
Arkansas Federal Public Defender Office
1401 West Capitol Avenue, Suite 490
Little Rock, Arkansas 72201
john_c_williams@fd.org
Counsel for Petitioner
I further certify that all parties required to be served have been served.

VINCENT M. WAGNER
Deputy Solicitor General
Counsel of Record

June 15, 2021

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-8090
vincent.wagner@arkansasag.gov

